No. 21-194

In the Supreme Court of the United States
____________________
CALIFORNIA TRUCKING ASSOCIATION, INC.;
RAVINDER SINGH; AND THOMAS ODOM,
Petitioners,
v.
ROBERT BONTA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL FOR THE STATE OF
CALIFORNIA, et al.,
Respondents.

____________________
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the
Ninth Circuit

____________________
BRIEF FOR THE MINNESOTA TRUCKING
ASSOCIATION, AS AMICUS CURIAE SUPPORTING
PETITIONERS

____________________
Stephen A. DiTullio
Counsel of Record
Michael C. Glover
DEWITT LLP
2100 AT&T Tower
901 Marquette Avenue
Minneapolis, MN 55402
(612) 305-1400
sad@dewittllp.com
mglover@dewittllp.com

Doug Grawe
PO Box 19074
Minneapolis, MN 55419
(515) 450-1860
doug.grawe@thegrawegroup.com

Counsel for Amicus Curiae

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES .................................... ii
INTEREST OF THE AMICUS CURIAE ................ 1
SUMMARY OF ARGUMENT.................................. 2
ARGUMENT ............................................................ 3
I.

The owner-operator business model
has a long history ....................................... 4

II.

The owner-operator business model
is an entrepreneurial melting pot .............. 6

III. The owner-operator business model
benefits drivers, motor carriers, and
shippers ....................................................... 7
A. The owner-operator business
model benefits drivers ........................... 7
B. The owner-operator business
model benefits the motor carrier ........ 11
C. The owner-operator business
model benefits the shipper .................. 14
IV. Existing regulations, case law, and
service providers protect and support
the owner-operator ................................... 16
V.

The California ABC test cuts service
available to shippers and protections
available to the public .............................. 18

CONCLUSION ....................................................... 23

ii
TABLE OF AUTHORITIES
Page
Cases
Agric. Transp. Ass’n of Texas v. King,
349 F.2d 873 (5th Cir. 1965) .............................. 5
Bibb v. Navajo Freight Lines, Inc.,
359 U.S. 520 (1959)........................................... 20
Owner-Operator Indep. Drivers Ass’n
v. Arctic Express, Inc.,
270 F. Supp. 2d 990 (S.D. Ohio 2003) ................ 5
Owner-Operator Indep. Drivers Ass’n v.
New Prime, Inc.,
339 F.3d 1001 (8th Cir. 2003) .......................... 17
Owner-Operator Indep. Drivers Ass’n v.
Supervalu, Inc.,
651 F.3d 857 (8th Cir. 2011) ............................ 17
Owner-Operator Indep. Drivers Ass’n, v.
Swift Transport. Co.,
632 F.3d 1111 (9th Cir. 2011) .......................8, 17
People v. Superior Court of Los Angeles County,
57 Cal. App. 5th 619, 271 Cal. Rptr. 3d, 570,
579-82 (2020), petition for cert. filed sub nom.
Cal Cartage Transp. Express, LLC v.
California (U.S. Apr. 16, 2021)
(No. 20-1453) ..................................................... 18
Schwann v. FedEx Ground Package Sys., Inc.,
813 F.3d 429 (1st Cir. 2016) ............................. 23

iii
Statutes
Motor Carrier Act of 1935,
Pub. L. 74-255, 49 Stat. 543 (1935) ................ 4, 5
49 Stat. 543 (1935) ................................................... 5
49 U.S.C. § 14102 ..................................................... 4
49 U.S.C. § 14501(c)(1)........................................... 23
Cal. Labor Code § 2775 ........................................ 3, 6
Cal. Labor Code § 2776 .......................................... 19
Minn. Stat. § 176.043 ............................................... 6
Minn. Stat. § 363A.17 ............................................ 16
Rules
49 C.F.R. §§ 376.1, et seq. .................................... 4, 8
49 C.F.R. § 376.12 .............................................16, 19
49 C.F.R. § 387.7 .................................................... 21
49 C.F.R. § 387.9 .................................................... 21
49 C.F.R. § 390.5 ...............................................12, 17
Other Authorities
2020 Essential Financial and Operating
Information for the 100 Largest For-Hire
Carriers in North America, Transport Topics
https://www.ttnews.com/top100/for-hire/2020 ...... 14
Douglas C. Grawe, Have Truck, Will Drive:
The Trucking Industry and The Use of
Independent Owner-Operators Over Time,
35 Transp. L.J. 115 (2008) ............................4, 5, 6, 9

iv
Industry Facts, Owner-Operator Indep. Drivers
Ass’n, https://www. ooida.com/wpcontent/uploads/2021/03/
Trucking-Facts.pdf .............................................11, 13, 14
Paul Stephen Dempsey, Transportation:
A Legal History, 30 Transp. L.J. 235 (2003) ........... 4
Professional Truck Driver Types, The
Trucker, https://www.thetrucker.com/
truck-driving-jobs/resources/professionaltruck-driver-types ...............................................6, 13

INTEREST OF THE AMICUS CURIAE*
Amicus is a Minnesota based trucking
industry trade association. It has long supported the
rights of professional truck drivers and motor
carriers to choose independent owner-operator or
employee driving opportunities. Amicus offers this
brief in support of the Court granting Petitioners’
petition so the Court may preserve the rights of
professional drivers and motor carriers to choose
their own working relationships and business
opportunities.

All parties received timely notice of intent to file this brief at
least 10 days in advance of the brief’s due date. Amicus counsel
confirms receipt of consent to file this brief from all parties.
Pursuant to Rule 37.6, amicus curiae affirms no counsel for a
party authored this brief in whole or in part and no person
other than amicus, its members and its counsel made a
monetary contribution to the preparation or submission of this
brief.
*

2
SUMMARY OF ARGUMENT
For over 100 years, the United States trucking
industry has offered opportunities for professional
drivers with entrepreneurial spirit to own their own
business and contract with motor carriers as owneroperators. Through economic regulation and
deregulation, through boom times and fuel
shortages, through paper logbooks and electronic
onboard recorders, owner-operators have provided
the flexible capacity and service necessary to meet
their own needs as well as those of motor carriers
and shippers.
Owner-operators partner with motor carriers to
safely move customer freight and protect the
motoring public in accord with federal safety
regulations. Owner-operators enjoy both the
freedom and responsibility to be their own boss, to
earn a profit, or suffer a loss. Represented by their
own trade associations, and protected by state and
federal laws, owner-operators proudly have stood
the test of time.
Unfortunately, state laws like California’s
version of the ABC test at issue in this case
eliminate the owner-operators’ ability to further
that stand. Eliminating the owner-operator model
cuts off a professional driver’s right to choose
traditional employment or own their own
independent business. The law further eliminates
cargo capacity and service options for motor carriers
and shippers.

3
By limiting owner-operator opportunities,
infringing on motor carriers’ options and service
offerings for shippers, California is improperly
regulating motor carriers in a way preempted by
federal law. California’s Labor Code § 2775,
sometimes referred to as AB5, will effectively bar
Minnesota owner-operators from load opportunities
in California, alter the business model options
available to Minnesota motor carriers wanting to
serve California, and restrict the services and
vendors available to Minnesota shippers for their
customers and vendors in California. Amicus
respectfully requests the Court grant the Petition
and preserve professional drivers’ rights to choose
the career path that works for them, preserve the
motor carrier’s flexibility to offer the capacity and
services shippers demand, and preserve a level
playing field for owner-operators, motor carriers,
and shippers in Minnesota and throughout the
United States wanting to do business in California.
ARGUMENT
Americans cherish the freedom to go about their
business without overreaching intrusion from
government. Government regulation has its place,
especially when it comes to safety and fair dealing.
But government overreaches when it eliminates the
rights of people to choose their own careers and
pursue their own business opportunities. California,
through Cal. Labor Code § 2775, so overreaches that
it eliminates a viable career path for professional
truck drivers, both inside and outside California, to
own their own trucking businesses as owner-

4
operators. Amicus respectfully requests this Court
take this opportunity to stop California’s intrusion
into professional truck drivers’ rights to choose to
run an independent business as an owner-operator
or be an employee driver.
I.

The owner-operator business model has
a long history.

“Owner-operator” is a term for an individual who
owns a commercial motor vehicle and leases that
vehicle and their driving services to a motor carrier
under rules authorized under 49 U.S.C. § 14102 and
promulgated at 49 C.F.R. §§ 376.1, et seq. (the
“Truth-in-Leasing” regulations).
Owner-operators date back over 100 years to the
beginning of the trucking industry. See Paul
Stephen Dempsey, Transportation: A Legal History,
30 Transp. L.J. 235, 273-74 (2003). Congress began
regulating motor carriers in interstate commerce
with passage of the Motor Carrier Act of 1935. As a
result, owner-operators were forced to haul only
“exempt” commodities because they did not have the
required federal operating authority to haul
anything else. However, owner-operators quickly
learned they could transport more freight by leasing
their trucks with a driver to motor carriers with
federal operating authority. This mutually
beneficial arrangement allowed owner-operators to
expand their business opportunities and provided
motor carriers more capacity to serve their shippers.
Douglas C. Grawe, Have Truck, Will Drive: The
Trucking Industry and The Use of Independent

5
Owner-Operators Over Time, 35 Transp. L.J. 115,
122-23 (2008).
Eliminating
the
owner-operator
model
eliminates a critical, influential, and protected
industry segment. In the 1930s owner-operators
transported exempt agricultural commodities and
later helped motor carriers expand their motor
carrier services in the peak of, and without
interference
from,
Interstate
Commerce
Commission (ICC) regulation. See Motor Carrier Act
of 1935, Pub. L. 74-255, 49 Stat. 543, 545 (1935). The
arrangement worked. In the 1970s, owner-operators
forced beneficial changes to the industry by
protesting fuel price gouging and spurring fairer fuel
pricing policy. Grawe, supra at 130-31. In the 1990s
and 2000s, owner-operators brought significant
claims against motor carriers violating lease
agreements and the Truth-In-Leasing regulations.
See, e.g., Owner-Operator Indep. Drivers Ass’n v.
Arctic Express, Inc., 270 F. Supp. 2d 990 (S.D. Ohio
2003). And the arrangement continues to work.
Congress, courts, and administrative agencies
have long recognized the critical role independent
owner-operators play in the nation’s transportation
system. “[T]he ICC, the body charged with
responsibility for developing and maintaining a
strong national transport system with the full
legislative blessing of Congress, recognizes in a
formal and vital way that carriers (common or
contract) are entitled to obtain needed equipment
and augment fleets to care for increases in traffic by
means of leases.” Agric. Transp. Ass’n of Texas v.
King, 349 F.2d 873, 881 (5th Cir. 1965) (footnote

6
omitted). The owner-operator model has been
updated with the times but remains strong in much
the same form. See Minn. Stat. § 176.043 (an
example of state statutory recognition of the owneroperator trade). The model is critical to today’s
demanding supply chain requirements.
“Independent owner-operators are running
businesses on wheels. The cabs of the tractors are
wired offices. Shippers and motor carriers track the
tractor’s location through satellites, communicate
with independent owner-operators through satellite
messaging and cell phones, while the independent
owner-operators can process paperwork through
laptop computers, wireless Internet access, and
scanning documents.” Grawe, supra at 136. Applied
to the nation’s motor carrier industry, California’s
ABC test – Cal. Labor Code § 2775 – needlessly
eliminates owner-operators, the long-standing,
critical and influential professional driver trade in
California and beyond.
II.

The owner-operator business model is
an entrepreneurial melting pot.

For some drivers, their road to becoming an
owner-operator is the next mile marker after driving
as an employee. See, e.g., Professional Truck Driver
Types,
The
Trucker,
https://www.thetrucker.com/truck-drivingjobs/resources/professional-truck-driver-types (last
visited Sept. 1, 2021). Some drivers grew up around
owner-operators and want to continue their family’s
legacy. Others become owner-operators because

7
family obligations demand a flexible schedule. Some
want the opportunity to earn more money.
The reasons drivers choose to be independent is
as varied as the owner-operators themselves. Among
those working with Amicus members, some owneroperators are vintage cowboy truckers, some are
dedicated family-men and women. Some are
military and industry veterans. Others are hungry
novices with a dream. Owner-operators working
with our Amicus members are men and women of all
races and backgrounds. Employee drivers
considering graduating to owner-operator status
seek to answer the challenge of running their own
business. Do they possess the skills and business
acumen to manage finances and expenses, to
maximize truck utilization, increase profits, and
build their own business?
III.

The owner-operator business model
benefits drivers, motor carriers, and
shippers.
A. The owner-operator business model
benefits drivers.

Many professional drivers prefer the owneroperator model. It allows drivers to start their own
business, transport freight with their own truck and
try to maximize profit by finding higher paying
loads, limiting empty miles, and lowering fuel and
maintenance costs. It also allows the driver to avoid
the costly burdens of a motor carrier. Importantly,
while the owner-operator maintains independence,
when the owner-operator partners with a motor

8
carrier, the owner-operator obtains the benefit of (1)
the motor carrier’s regulatory
compliance
infrastructure; (2) the motor carrier’s ability to
solicit freight from large shippers; (3) the motor
carrier’s capital to invest in trailers, technology, and
storage yards; (4) the motor carrier’s back office to
administer billing and collections; and (5) the motor
carrier’s insurance and reserves necessary to protect
the motoring public.
Structurally, the owner-operator enters into a
written agreement with the motor carrier. This
agreement allows the owner-operator to lease a
truck and provide a driver (usually themselves) to
the motor carrier. See Owner-Operator Indep.
Drivers Ass’n v. Swift Transp. Co., 632 F.3d 1111,
1113 (9th Cir. 2011). “Owner-operators are truck
drivers who contract with motor carriers to provide
hauling services; they typically own their own
equipment and lease out their trucks and hauling
services to carriers….” Id. Extensive federal truthin-leasing regulations oversee and control these
lease agreements. See 49 C.F.R. §§ 376.1, et seq.
These regulations protect the owner-operator from
motor carrier financial overreaching.
In this regulated exchange, the owner-operator
enjoys the freedom to make their own operating
decisions. They can accept and reject loads, set their
own schedule, buy or lease their own equipment,
hire drivers or helpers, and make their own maintenance decisions. The owner-operator trades the
stability of wages and employee benefits for higher
compensation and more options. The owneroperator, untethered from an employer’s benefit

9
plan, has more choices in the marketplace for
insurance, benefits, and support services from
organizations serving owner-operators such as
ATBS, Drivers Legal Plan, Openforce, and the
Owner Operator Independent Driver Association
(“OOIDA”).
Critically, the owner-operator must make
business decisions common to all business owners
and make a meaningful investment in their
business. Just like store owners decide whether to
work the register and stock the shelves, or to invest
in additional help, owner-operators decide to add
revenue potential and costs by investing in
additional drivers and helpers or to stay lean and
operate the truck themselves. They make the
decision to buy or lease a truck, or multiple trucks.
The owner-operator invests in additional equipment
(such as phones, laptops, and tablets) to
communicate with motor carriers and shippers. The
owner-operator buys or rents an electronic hours of
service logging device to comply with federal hours
of service laws, and purchases insurance to protect
the truck, the driver, and the public when not
operating with a motor carrier.
An online retailer chooses to find customers by
selecting an e-commerce platform to partner with
like Amazon or eBay, or by choosing to create their
own e-commerce platform. The owner-operator
makes a similar decision when it chooses the motor
carrier to partner with for their business. Once they
choose a platform the online retailer must develop a
strategy to maximize revenue within that platform.
The owner-operator, after selecting a motor carrier,

10
must develop a strategy to generate more loads,
consistent loads, and better paying loads with that
motor carrier.
The home builder needs a materials sourcing
strategy, a method to limit the waste of any
materials, and a plan to maximize the life of
expensive tools and equipment to keep costs low and
make profit. Similarly, the owner-operator needs a
deft fuel purchasing strategy, habits that maximize
fuel efficiency, and a truck maintenance plan that
minimizes downtime and maximizes the life of the
truck.
Those
critical
investment,
revenue
development, and cost management decisions and
more determine the owner-operator’s profit or loss,
and ultimate success or failure just as the
investment, revenue, and cost management
decisions make or break the shopkeeper, the online
retailer, and the home builder.
Conversely, the employee driver does not invest
in trucks, logging devices, and other equipment. The
employee driver does not develop a revenue strategy
other than to show up for work. The employee driver
has no financial interest in lowering the motor
carrier’s fuel or maintenance costs. The employee
driver receives a set rate for moving loads dictated
by the motor carrier. An employee driver must use
the motor carrier’s chosen route. An employee driver
drives a truck built to the motor carrier’s
specifications, with only the comforts allowed by the
motor carrier, and with the controls imposed by the
motor carrier. The owner-operator determines their
own routes, truck specifications and comforts. The
employee driver, in contrast, can only fuel, shower,

11
and rest where the motor carrier permits. An owneroperator retains control of these decisions. Grawe,
supra at 126-27.
Some professional drivers accept controls and
choose the security of being employee drivers.
However, many instead choose the challenge of
being an owner-operator. For them it is their choice
and a career milestone. Of 3.9 million commercial
driver license holders in the U.S., between 350,000
and 400,000 are owner-operators.1 These owneroperators find their niche in the industry by carving
out higher rates of compensation, receiving
administrative support, and liability protections
from motor carriers in exchange for providing
equipment and driver services the motor carrier
does not, or cannot, provide on its own. The owner
operator model benefits professional drivers by
giving them life, career, and business choices at
premium rates.
B. The owner-operator business model
benefits the motor carrier.
For the motor carrier, the owner-operator
business model offers the benefit of flexible capacity
and more service offerings. Owner-operators offer
motor carriers additional capacity to haul freight for
shippers without incurring additional fixed
expenses such as truck payments, employee wages,
and benefits. However, the motor carrier makes
See Industry Facts, Owner-Operator Indep. Drivers Ass’n,
https://www.ooida.com/wp-content/uploads/2021/03/
Trucking-Facts.pdf (last visited Sept. 1, 2021).
1

12
tradeoffs when it decides between utilizing employee
drivers, owner-operators, or a combination of both.
But first, one fundamental obligation of any
motor carrier is to bear responsibility for the safety
of the motoring public against motor vehicle
accidents. As to motor vehicle accident risk and
protecting the motoring public, there are no
tradeoffs for motor carriers between employee
drivers and owner-operators. Whether utilizing an
owner-operator or an employee, the motor carrier
retains the same liability obligation to the public. By
law, those costs are not borne by the owner-operator
but by the motor carrier for the acts of all drivers,
including owner operators, utilizing the motor
carrier’s operating authority. See 49 C.F.R. § 390.5.
However, as to day-to-day operations and fixed
and variable expenses, there are tradeoffs.
Opponents of owner-operators claim motor carriers
utilize owner-operators to save money on taxes and
benefits. Owner-operators do not cost motor carriers
more or less than employee drivers; the costs are
different. When utilizing an owner-operator, the
motor carrier gains relief from fixed expenses such
as equipment costs, some employment-related taxes,
and driver benefits by paying the owner-operator
only when they move a load and paying them as the
independent business owners that they are.
However, the motor carrier incurs a much higher
variable rate with owner-operators because the
motor carrier must compensate the owner-operator
a percentage rate or a mileage rate two to three
times higher than the motor carrier would pay its
employee driver.

13
By adding owner-operators, motor carriers can,
however, offer more capacity, more flexibility to
meet shipper needs, and accept more freight. The
number and type of loads from shippers can be
unpredictable for motor carriers. A shipper may
offer five dry goods loads per week regularly, but
during certain seasons they may offer loads that
require temperature control and more attention.
Motor carriers can invest in equipment and
employee drivers based on the more predictable dry
goods loads from shippers. But motor carriers can
offer more capacity, more services to shippers by
contracting with owner-operators when shippers
demand the extra capacity, attention, and service
type. Owner-operators can demand premium rates
by providing the extra, flexible capacity and
additional service to motor carriers and shippers.
Motor carriers choosing to increase or reduce
capacity for shippers often trade the maximum
efficiency of dispatching employee drivers for the
reduced overhead and additional capacity of
utilizing owner-operators. Some motor carriers like
this trade off, others do not, and most make the
trade only as a supplement to their employee driver
fleet. The mix of approaches by motor carriers means
professional drivers have options.
As of December 2020, there were between
500,000 and 600,000 motor carriers in the U.S.
across all vehicle classes, providing approximately
4.7 million vehicles on the road.2 Between 350,000
See Industry Facts, Owner-Operator Indep. Drivers Ass’n,
supra at n.1.
2

14
and 400,000 of those vehicles belong to owneroperators or single-truck motor carriers.3 Of the top
100 motor carriers, only five utilize owner-operators
exclusively, while the rest utilize employee drivers
exclusively or some combination. It is fair to assume
the rest of the industry likely shares a similar
breakdown, some utilizing owner-operators solely,
and most utilizing either a blend or employees
exclusively.4
The mix of employee drivers and owner-operators
suggests there is no market domination for one
model but, instead, many options for employee
drivers, owner-operators and motor carriers. Any
owner-operator who wants to be an employee driver
has many opportunities available and vice versa.
Motor carriers rely on the control of employee
drivers to maximize efficiency, but motor carriers
also want the extra capacity in any form to offer
more services and capacity to shippers which owneroperators provide.
C. The owner-operator business model
benefits the shipper.
Motor carriers with the added services and
capacity offered by owner-operators benefit

Id.
See 2020 Essential Financial and Operating Information
for the 100 Largest For-Hire Carriers in North America,
Transport
Topics
https://www.ttnews.com/top100/forhire/2020 (last visited Sept. 1, 2021).
3

4

15
shippers. The extremely competitive and diverse
transportation industry means shippers often must
utilize multiple transportation service providers to
move their freight efficiently, safely and on-time.
The owner-operator business model fills part of that
need by allowing motor carriers to serve shippers
with supplemental capacity and service needs. This
reduces the number of providers a shipper must
engage to move its freight, easing administrative
burdens, lowering transactional costs, and
improving service.
For example, a shipper may have inconsistent
freight volumes, or inconsistent freight origins and
destinations. Motor carriers and shippers both
struggle to efficiently manage such inconsistency.
The shipper may reliably have five loads per week
between A and B, but sporadically may ramp up to
seven or eight loads per week. The shipper and the
motor carrier can manage the five loads, but the
sporadic extra loads are difficult to service. Owneroperators solve this problem by offering the periodic
flexibility to transport the extra loads, respond to
spikes in volume, and service new, erratic, or sparse
markets.
If the shipper could not utilize the extra capacity
from the motor carrier and their owner-operator, the
shipper would need to spend time and resources
finding another motor carrier. However, a new
motor carrier may not offer the same rates and
service levels. That new motor carrier may also lack
knowledge on how to meet the shipper’s
administrative needs. And the shipper will endure
the administrative burden to set up a new vendor in

16
its system. All these tedious tasks add time, cost,
and inefficiency to the shipper’s business.
By working together, the owner-operator and the
motor carrier can pursue their own business
initiatives and serve the variable freight needs of
shipping customers. The owner-operator gets access
to larger shippers that it may not otherwise be able
to serve without the motor carrier’s resources. The
owner-operator also receives premium rates for
offering flexible capacity and service. The motor
carrier receives more business from the shipper.
The shipper gains access to flexible capacity and
service without adding administrative and
transactional costs. In the owner-operator model,
the owner-operator receives the freight benefits, the
freedom, and the premium earning potential, all
while being protected by unique laws and support
networks built to serve owner-operators.
IV.

Existing regulations, case law, and
service providers protect and support
the owner-operator.

Existing state and federal laws protect owneroperators from motor carrier and shipper bad acts.
For example, Minn. Stat. § 363A.17 prohibits
businesses from discriminating against any vendor
or customer on the basis of race, sex, national origin,
color, sexual orientation, or disability. Federal
truth-in-leasing laws protect owner-operators from
motor carriers taking unauthorized deductions from
owner-operator compensation. See 49 C.F.R.
§ 376.12. Federal motor carrier safety regulations
protect the motoring public by imposing federal

17
safety requirements on motor carriers and their
drivers and owner-operators alike. See 49 C.F.R.
§ 390.5. Existing independent contractor definitions
such as the economic realities test, the right to
control test, and others, offer standards that protect
drivers from misclassification and ensure owneroperators can retain the freedom they are entitled to
under law. But California’s ABC test provides no
such protection for trucking owner-operators; it
simply defines them out of existence.
Owner-operators are an industry protected by
decades of case law. Owner-operators who have been
legally harmed by motor carriers and shippers
violating federal truth-in-leasing and other laws
have exercised their claim rights for years. See, e.g.,
Owner-Operator Indep. Drivers Ass’n v. Supervalu,
Inc., 651 F.3d 857 (8th Cir. 2011); Owner-Operator
Indep. Drivers Ass’n v. Swift Transport. Co., 632
F.3d 1111 (9th Cir. 2011); Owner-Operator Indep.
Drivers Ass’n v. New Prime, Inc., 339 F.3d 1001 (8th
Cir. 2003). These legal actions demonstrate the
owner-operator industry is organized, well-funded,
and fully capable of protecting its best interests.
Many businesses and organizations provide
support such as tax and bookkeeping services,
marketing services, insurance and benefits
products, fuel optimization technology, route
optimization technology, legal services, and more to
owner-operators. These support businesses and
organizations, coupled with the expansive laws, the
unique laws, and the strong demand in the
marketplace for employee drivers and owneroperators combine to protect owner-operators and

18
provide them leverage against any bad actors.
Eliminating the owner-operator model not only
eliminates the owner-operators themselves, but also
hurts the businesses and organizations built to
support owner-operators on top of the pain shippers
and motor carriers would suffer from no owneroperators being available.
V.

The California ABC test cuts service
available to shippers and protections
available to the public.

Enforcement of California’s ABC test gives
existing owner-operators and motor carriers
operating in or through California only three
options: (1) transition to a wholly employee driver
model; (2) force owner-operators to obtain their own
motor carrier operating authority and motor carriers
to obtain a property broker license to broker loads;
or (3) leave the industry.5 None of these options
The California Court of Appeals in People v. Superior Court of
Los Angeles County, 57 Cal. App. 5th 619, 271 Cal. Rptr. 3d, 570,
579-82 (2020), petition for cert. filed sub nom. Cal Cartage Transp.
Express, LLC v. California (U.S. Apr. 16, 2021) (No. 20-1453),
contended California’s ABC test provides a fourth option – the
continuance of the existing owner-operator model, because of
California’s business-to-business exemption to the ABC test. See
Pet. App. 18a. However, the business-to-business exemption
does not permit the owner-operator model to continue in
California for all practical purposes. For example, the businessto-business exemption requires that the owner-operator be able
to contract with other businesses and maintain a clientele
without restrictions from the motor carrier (Cal. Labor §
2776(a)(7)). This requirement conflicts with Federal Truth-InLeasing regulations (49 C.F.R. § 376.12), which require motor
carriers to maintain “exclusive possession, control, and use of
5

19
benefit owner-operators, motor carriers or shippers.
These options restrict freedoms, reduce protections,
and decrease efficiency inside and outside
California’s borders.
An owner-operator and a motor carrier choosing
option one – an employee driver relationship – must
decide whether the owner-operator, even one living
in Minnesota, will be an employee only when driving
in California, only if the owner-operator moves to
California, only if the owner-operator is dispatched
out of a terminal in California, or some other
criteria. The Minnesota motor carrier with owneroperators living and operating throughout the
United States on irregular routes must determine
whether to convert all owner-operators to employees
because of the potential for moving loads in
California from time to time based on unclear
thresholds or abandon service to California
altogether. The owner-operator loses the freedom to
choose their own fuel and maintenance stops, to set
the [owner-operator’s] [truck] for the duration of the [contract].”
49 C.F.R. § 376.12(c). By federal law the owner-operator cannot
contract with multiple motor carriers at one time to haul nonexempt freight (virtually all freight except limited agricultural
commodities is non-exempt freight), effectively barring a motor
carrier with complying with the business-to-business exemption
and the Federal Truth-In-Leasing regulations at the same time.
Further, the business-to-business exemption requires the owneroperator to provide services directly to the motor carrier and not
to the motor carrier’s customer (Cal. Labor § 2776(a)(2)). When
an owner-operator delivers freight from a consignor to a
consignee, is the owner-operator providing the service to the
motor carrier that contracted them, or is the owner-operator
providing the service to the consignor? Or to the consignee? The
legislature provided no guidance.

20
their own work schedule, to pick the truck they
want, and more. The shipper and the motor carrier
lose the ability to flex capacity up and down to match
shippers’ needs. The owner-operator loses the
opportunity to generate more revenue and test their
own entrepreneurial skills.
Alternatively, the Minnesota motor carrier may
set up separate business operations and
relationships for California, adding inefficiencies
and significant administrative burdens, and choose
to interline (i.e. involve additional motor carriers) all
freight into and out of California by transferring
possession of trailers and loads off at the California
border between owner-operators and employee
drivers. See Bibb v. Navajo Freight Lines, Inc., 359
U.S. 520, 527-28 (1959) (describing interline
operation of motor carriers). Doing so needlessly
increases the motor carrier’s costs to serve shippers
in California and reduces the loads and revenue
available to owner-operators outside of California. It
may help the motor carrier and the owner-operator
comply with California’s ABC test, but it would
decrease utilization, increase truck and driver idle
time waiting for handoffs, complicate the movement
of freight throughout the United States, and slow
the delivery of goods. Courts have recognized the
burden conflicting state laws can have on the
trucking industry and have ruled federal law must
preempt a state law when it imposes too much of a
burden on interstate commerce. For example, this
Court ruled an Illinois law specifying a certain
mudguard
design
on
trucks
to
be
an
unconstitutional burden on interstate commerce
because it would have required motor carriers to

21
switch out equipment at the Illinois border. Bibb,
359 U.S. at 529-30.
An owner-operator choosing option two,
obtaining their own motor carrier operating
authority, forces the motor carrier to change its
relationship with the owner-operator. The motor
carrier must obtain property broker authority in
order to tender loads from shippers to the owneroperator, now also a motor carrier. Doing so blurs
the first motor carrier’s role as a motor carrier or a
broker. The first motor carrier will need to clarify its
role and decide whether to become a broker fulltime, across all shipments or to act as a broker to its
shippers only for California shipments and a motor
carrier for all other shipments. Of course, this only
creates more opacity to the shipper.
Every time it chooses to be a broker, the motor
carrier simplifies its role, including reducing its
duties to the motoring public. Specifically, a
interstate motor carrier must possess a minimum of
$750,000.00 of financial responsibility, typically
liability insurance, to protect the public. 49 C.F.R.
§§ 387.7, 387.9. A broker has no similar requirement
to protect the public. The motor carrier’s decision to
be a broker, whether full-time or part-time, will
affect operations, billing rates, insurance, liability,
safety, licensing, and virtually every other aspect of
the motor carrier’s business and its relationships
with shippers and drivers. A Minnesota motor
carrier choosing a broker business model for just
California or for California and beyond would lead to
an internal patchwork of inconsistent processes,

22
procedures, and classifications, and less financial
responsibility to protect the motoring public.
An owner-operator reincarnating into a onetruck motor carrier would likely lack the financial
wherewithal to invest in more robust safety
technology such as rear-end collision avoidance or
lane-keep equipment. They would likely lack
internal resources to aid with regulatory
compliance. They would likely lack the financial
wherewithal to obtain insurance limits higher than
the federal minimum of $750,000, an insufficient
amount to keep up with today’s multi-million-dollar
verdicts in motor vehicle accident litigation.
Further, the original motor carrier (now just a
broker) would avoid the motor carrier public
financial responsibility cost altogether leaving only
the owner-operator’s minimum insurance policy as
compensation to an injured person. As a result,
eliminating the owner-operator model could,
unintentionally, increase risks and financial
exposure for the motoring public.
Option three is equally undesirable. An owneroperator leaving the industry is a lost
entrepreneurial opportunity. It is a lost opportunity
for additional capacity motor carriers want. And it is
a lost opportunity for service flexibility shippers
need.
California’s ABC test adversely affects the
interstate cargo transportation industry to the core.
Interstate commerce requires uniform rules to
operate efficiently. Federal law must preempt any
state law that intrudes upon, and fundamentally

23
alters a long-standing, proven, and mutually
beneficial business model in the interstate trucking
industry.
Today, an owner-operator, a motor carrier,
and a shipper based in Minnesota, with shipments
and facilities around the country are stuck with not
knowing whether the owner-operator business
model can continue to stand the test of time. The
First Circuit in Schwann v. FedEx Ground Package
Sys., Inc., 813 F.3d 429 (1st Cir. 2016) found the
same ABC test pre-empted by The Federal Aviation
Administration Authorization Act (“FAAAA”), 49
U.S.C. § 14501(c)(1), but the Ninth Circuit in the
case below rejected any pre-emption of the ABC test
by FAAAA. As a Minnesota motor carrier trying to
serve customers throughout the United States with
entrepreneurially minded drivers, and trying to
comply with all applicable laws, the motor carrier
cannot engage with owner-operators with any
certainty of its relationships. Minnesota owneroperators lose business opportunities because of the
courts’ inconsistent respect for the owner-operator
model.
CONCLUSION
The owner-operator model has a long, proud
history, serving a vital trucking industry niche. It
coexists today within a heavily regulated segment of
the trucking industry. But the model can never
satisfy California’s ABC test. California eliminated
owner-operators despite the FAAAA’s preemption of
state laws that relate to price, routes, or services of
interstate motor carriers. The Court has the

24
opportunity to settle the owner-operator model’s
future by granting the petition. Amicus respectfully
requests the Court take the opportunity and grant
the petition.
Respectfully submitted,
Stephen A. DiTullio
Counsel of Record
Michael C. Glover
DEWITT LLP
2100 AT&T Tower
901 Marquette Avenue
Minneapolis, MN 55402
(612) 305-1400
sad@dewittllp.com
mglover@dewittllp.com
Doug Grawe
The Grawe Group, LLC
PO Box 19074
Minneapolis, MN 55419
(515) 450-1860
Doug.grawe@thegrawegroup.com

